                                        March 30, 2007




MEMORANDUM TO:            Luis A. Reyes
                          Executive Director for Operations



FROM:                     Stephen D. Dingbaum/RA/
                          Assistant Inspector General for Audits


SUBJECT:                  SUMMARY REPORT AND PERSPECTIVES ON
                          BYPRODUCT MATERIAL SECURITY AND
                          CONTROL (OIG-07-A-12)


This report presents the results of the subject audit. Agency comments provided
at the exit conference on October 4, 2006, and in a written response, dated
January 12, 2007, have been incorporated, as appropriate, into this report.
Appendix B contains a copy of the agency’s written comments and Appendix C
contains our response.

Please provide information on actions taken or planned on the recommendation
contained in this report within 30 days of the date of this memorandum. Actions
taken or planned are subject to OIG follow up as stated in Management
Directive 6.1.

We appreciate the courtesies and cooperation extended to us by members of
your staff during the audit. If you have any questions or comments about our
report, please contact me at 301-415-5915, or Tony Lipuma at 415-5910.

Attachment: As stated
ELECTRONIC DISTRIBUTION

Frank P. Gillespie, Executive Director, Advisory Committee on Reactor
  Safeguards/Advisory Committee on Nuclear Waste
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Luis A. Reyes, Executive Director for Operations
Janice Dunn Lee, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research,
 State and Compliance Programs, OEDO
Jacqueline E. Silber, Deputy Executive Director for Information Services
 and Administration and Chief Information Officer, OEDO
Michael R. Johnson, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Cynthia A. Carpenter, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
 and Environmental Management Programs
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
R. William Borchardt, Director, Office of New Reactors
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
                     AUDIT REPORT


                    Summary Report and Perspectives on
                   Byproduct Material Security and Control

                        OIG-07-A-12 March 30, 2007




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                      Summary Report and Perspectives on Byproduct Material Security and Controls




EXECUTIVE SUMMARY

       BACKGROUND

       The events of September 11 made it clear that terrorists have the
       patience and ability to plan and conduct devastating attacks in the
       U.S. The National Strategy for Homeland Security describes
       terrorists as “strategic actors” who choose their targets deliberately
       based on the weaknesses they observe in U.S. defenses and
       preparations, adjust their plans in response to U.S. efforts to close
       vulnerabilities, and shift their focus to other, exposed vulnerabilities.
       The strategy also states that terrorists are working to obtain
       chemical, biological, radiological, and nuclear weapons, and that
       the knowledge, technology, and materials needed to build such
       weapons is spreading.

       After September 11, NRC acted immediately to begin addressing
       physical security in the byproduct material program. This included
       conducting security assessments for a sample of various types of
       material licensees. NRC also has some on-going efforts that are
       intended to improve material security.

       In February 2005, the NRC Office of Inspector General (OIG)
       began a review to determine if NRC's oversight of byproduct
       material provides reasonable assurance that licensees are using
       the material safely and account for and control material. During
       2006, OIG issued three reports related to material tracking and
       licensing. Also during this timeframe, the Government
       Accountability Office (GAO) conducted an investigation to ascertain
       whether radioactive sources could be smuggled across U.S.
       borders.

       PURPOSE

       Through this report, OIG seeks to synthesize the findings of
       previous OIG and GAO reviews and investigations in order to
       provide a more complete perspective of NRC’s approach to
       byproduct material security and control. The specific objective for
       this report was to discuss whether NRC has adequately adapted its
       approach to byproduct material security in the post-September 11
       era in accordance with the expectations of congressional and
       executive policymakers and the American people.




                                       i
              Summary Report and Perspectives on Byproduct Material Security and Controls




RESULTS IN BRIEF

While NRC has implemented or planned a variety of measures to
regulate and provide for the security of byproduct material in the
post-September 11 era, the agency, in its approach to byproduct
material security, has not adequately identified and evaluated
byproduct material security risks. Specifically, the NRC has not
conducted an impartial and comprehensive look inwards at its own
business and regulatory processes. Consequently, the agency is
not aware of potential weaknesses and vulnerabilities in its
byproduct material security program. Furthermore, NRC’s
approach has resulted in an agency policy and some practices that
do not consider the full range of potential consequences of a
radiological dispersal device (RDD or “dirty bomb”).

RECOMMENDATION

This report recommends that the Executive Director for Operations
convene an independent panel of experts external to the agency to
identify agency vulnerabilities concerning NRC’s material licensing
and tracking programs and validate the agency’s ongoing
byproduct material security efforts.

OIG ANALYSIS OF AGENCY COMMENTS

On January 12, 2007, the NRC provided comments concerning the
draft audit report and stated its belief that the agency’s current
participation in an independent, inter-agency Task Force on
Radiation Source Protection and Security, as well as security-
related actions implemented prior to the formation of the Task
Force, meets the objectives of OIG’s recommendation. However,
the Task Force did not perform a comprehensive vulnerability
assessment of NRC material programs. Such an assessment
should necessarily include examination of the management,
operational, and technical security controls and the extent to which
these controls are (1) implemented correctly, (2) operating as
intended, and (3) producing the desired outcome with respect to
mitigating security vulnerabilities. Furthermore, the Task Force,
chaired by the NRC and staffed by members of the agency, was
not independent.

Finally, the agency response does not acknowledge the need to
perform an impartial, comprehensive review as a measure of self-
assurance with regard to unknown vulnerabilities. Appendix B
contains NRC’s formal comments and Appendix C contains OIG’s
response to the agency’s comments.



                              ii
                    Summary Report and Perspectives on Byproduct Material Security and Controls




ABBREVIATIONS AND ACRONYMS

       CBP                  Customs and Border Protection

       CIA                  Central Intelligence Agency

       DOD                  Department of Defense

       DOE                  Department of Energy

       DHS                  Department of Homeland Security

       the Act              Energy Policy Act of 2005

       FBI                  Federal Bureau of Investigation

       FSME                 Office of Federal and State Materials and
                            Environmental Management Programs

       GAO                  Government Accountability Office

       IAEA                 International Atomic Energy Agency

       9/11 Commission      National Commission on Terrorist Attacks
                            Upon the United States

       NMSS                 Office of Nuclear Material Safety and
                            Safeguards

       NRC                  Nuclear Regulatory Commission

       NSIR                 Office of Nuclear Security and Incident
                            Response

       NSTS                 National Source Tracking System

       OIG                  Office of the Inspector General

       RDD                  radiological dispersal device

       Task Force           Radiation Source Protection and Security Task
                            Force




                                    iii
  Summary Report and Perspectives on Byproduct Material Security and Controls




[Page intentionally left blank.]




                  iv
                                  Summary Report and Perspectives on Byproduct Material Security and Controls




TABLE OF CONTENTS

    EXECUTIVE SUMMARY.........................................................................i

    ABBREVIATIONS AND ACRONYMS ................................................... iii

    I.     BACKGROUND .............................................................................1

    II.    PURPOSE......................................................................................5

    III.   FINDING ........................................................................................6

             NRC Efforts to Regulate Byproduct Material Security .................6

    IV.    SUMMARY AND CONCLUSION .................................................18


    APPENDIX

    A.     SCOPE AND METHODOLOGY...................................................21
    B.     FORMAL AGENCY COMMENTS ................................................25
    C.     OIG ANALYSIS OF AGENCY COMMENTS ................................31




                                                    v
  Summary Report and Perspectives on Byproduct Material Security and Controls




[Page intentionally left blank.]




                  vi
                                      Summary Report and Perspectives on Byproduct Material Security and Controls




I. BACKGROUND

                  The Nuclear Regulatory Commission’s (NRC) mandate to protect
                  public health and safety and the environment, and to provide for the
                  common defense and security, includes regulation of radioactive
                  byproduct material. Byproduct material includes radioactive
                  material generated by or from a nuclear reactor.1 It is used in
                  medical, academic, and industrial applications, as well as consumer
                  products such as smoke detectors and “exit” signs.

                           Agreement State Program

                  In accordance with section 274 of the Atomic Energy Act of 1954,
                  as amended, NRC has relinquished its authority to regulate
                  byproduct material to selected States. The States must first
                  demonstrate that their regulatory programs are compatible with
                  NRC’s program and adequate to protect public health and safety.
                  The 34 States which currently have an agreement with NRC to
                  assume this regulatory authority are called Agreement States. The
                  Agreement States, shown in Figure 1 below, administer about
                  17,450 material licenses, while NRC administers approximately
                  4,500 such licenses.




1
  The Atomic Energy Act of 1954, as amended, defines byproduct material, as (1) any radioactive material
(except special nuclear material) yielded in or made radioactive by exposure to the radiation incident to the
process of producing or utilizing special nuclear material; (2) the tailings or wastes produced by the
extraction or concentration of uranium or thorium from any ore processed primarily for its source material
content; (3)(A) any discrete source of radium-226 that is produced, extracted, or converted after extraction,
before, on, or after the date of enactment of this paragraph for use for a commercial, medical, or research
activity; or (B) any material that—(i) has been made radioactive by use of a particle accelerator; and (ii) is
produced, extracted, or converted after extraction, before, on, or after the date of enactment of this
paragraph for use for a commercial, medical, or research activity; and (4) any discrete source of naturally
occurring radioactive material, other than source material, that—(A) the Commission, in consultation with the
Administrator of the Environmental Protection Agency, the Secretary of Energy, the Secretary of Homeland
Security, and the head of any other appropriate Federal agency, determines would pose a threat similar to
the threat posed by a discrete source of radium-226 to the public health and safety or the common defense
and security; and (B) before, on, or after the date of enactment of this paragraph is extracted or converted
after extraction for use in a commercial, medical, or research activity.


                                                      1
                                   Summary Report and Perspectives on Byproduct Material Security and Controls




                  Figure 1: Agreement and Non-Agreement States




                           Source: http://nrc-stp.ornl.gov/ [as of March 2007]

                         Byproduct Material Safety and Security

                 Responsibility for byproduct material safety and security is shared
                 among several organizations in NRC. These include the Office of
                 Nuclear Material Safety and Safeguards (NMSS), the Office of
                 Nuclear Security and Incident Response (NSIR), the Office of
                 Federal and State Materials and Environmental Management
                 Programs (FSME), and NRC’s regional offices.

                 NRC Management Directive 9.26 spells out NMSS’ responsibilities
                 to regulate material licenses.2 Among other things, the directive
                 authorizes the NMSS Director to prescribe license conditions and
                 recommend rules and regulations for safety, material accounting,
                 and physical security measures amongst U.S. material licensees.

                 In 2002, NRC created NSIR to consolidate certain safeguards,
                 security, and incident response functions under one organization,
                 including some security functions previously under NMSS.
                 According to NSIR’s Web page on the NRC intranet, its mission is
                 “to prevent nuclear security incidents and prepare for and respond
                 to safety and security events.” Essentially, NSIR is the lead NRC




2
 Management Directive 9.26, Chapter NRC-0124, “Organization and Functions, Office of Nuclear Material
Safety and Safeguards,” October 27, 1989.


                                                   2
                                     Summary Report and Perspectives on Byproduct Material Security and Controls




                  organization for security in the byproduct material program, and
                  NMSS and NRC’s regional offices are the lead organizations for
                  safety.

                  NMSS and the Agreement States have assumed responsibility for
                  many byproduct materials under NRC’s public health and safety
                  authority3 and are responsible for knowing who and where the
                  licensees are. The NRC regional offices are responsible for
                  implementing any security changes to the license review and
                  inspection process developed by NSIR and issued by NMSS.
                  License reviewers and inspectors in the regional offices are the
                  eyes and ears of the agency, interacting with licensees and the
                  material user community.

                  FSME was established as part of an agency reorganization on
                  October 1, 2006. It has been charged with developing and
                  implementing rules and guidance for the safe and secure use of
                  source, byproduct, and special nuclear material. This includes
                  providing and updating guidance on material licensing and
                  inspection in the regions. It also has responsibility for all safety and
                  security interface issues between NRC and the Agreement States.

                           Byproduct Material and the Dirty Bomb

                  The terrorist attacks of September 11, 2001, heightened the
                  Nation’s concerns that the loss or theft of radioactive material could
                  lead to malicious use in a radiological dispersal device (RDD). An
                  RDD, also known as a dirty bomb, is a conventional explosive that
                  incorporates radioactive material and releases it on detonation.
                  The major purpose of a dirty bomb is to create terror and disruption,
                  not to cause death by radiation.

                  There is widespread agreement in the Federal Government
                  regarding the threat and effects of a dirty bomb. In a June 2003
                  press release, the White House stated, “There is growing concern
                  that terrorists or the states which support them could acquire
                  radioactive sources to construct dirty bombs. Detonation of a dirty
                  bomb could harm civilians and result in severe economic costs.”4
                  For example, a September 2005, BusinessWeek Online article
                  postulated that the economic losses from a dirty bomb exploded
                  outside the New York Stock Exchange could reach $1 trillion. The
                  threat posed by a potential dirty bomb is also reflected in a

3
  While Agreement States have authority to license byproduct material in their respective states, the Atomic
Energy Act of 1954, as amended, prevents the NRC from delegating “common defense and security”
authority to Agreement States.
4
  The White House Office of the Press Secretary, Countering "Dirty Bomb" Threat Fact Sheet, June 2, 2003.


                                                     3
               Summary Report and Perspectives on Byproduct Material Security and Controls




Department of Homeland Security (DHS) one-page “Radiation
Threat” visual guide, which pictorially depicts blast and protection
information related to the detonation of a dirty bomb.

The events of September 11 made it clear that terrorists have the
patience and ability to plan and conduct devastating attacks in the
United States. The National Strategy for Homeland Security
describes terrorists as “strategic actors” who choose their targets
deliberately based on the weaknesses they observe in U.S.
defenses and preparations; adjust their plans in response to U.S.
efforts to close vulnerabilities; and shift their focus to other,
exposed vulnerabilities. The strategy also states that terrorists are
working to obtain chemical, biological, radiological, and nuclear
weapons, and that the knowledge, technology, and materials
needed to build such weapons is spreading.

Following September 11, 2001, it became clear that governmental
institutions with a defense or security mission should evaluate and
transform—or adapt—their business approaches and missions to
address the threats posed by terrorists. This transformation
philosophy was conceptualized by the President in September
2002 in The National Security Strategy of the United States of
America which stated “The major institutions of American national
security were designed in a different era to meet different
requirements. All of them must be transformed.”

       NRC Measures to Secure Material

NRC has implemented a variety of measures to improve the
Nation’s security of radioactive material. After the events of
September 11, NRC acted immediately to begin addressing
physical security in the byproduct material program. This included
conducting security assessments for a sample of various types of
material licensees. In October 2001, NRC issued advisories to
material licensees that emphasized the importance of the security
and control of licensed material. In the weeks, months, and years
after September 11, NRC also issued security-related orders to the
largest material licensees. These orders addressed potential
vulnerabilities in storage, transportation, and access of byproduct
material among the licensees.

NRC also has some on-going efforts that are intended to improve
material security. These include continuing development of a
National Source Tracking System (NSTS), distributing pre-licensing




                               4
                       Summary Report and Perspectives on Byproduct Material Security and Controls




        guidance to the Regions and Agreement States, developing a
        rulemaking on background checks required of certain licensees,
        and sharing licensee information with other Federal agencies.

               The Radiation Source Protection and Security Task Force

        The Energy Policy Act of 2005 (the Act) established a multi-agency
        task force on radiation source protection and security (Task Force)
        with the NRC Chairperson or a designee as chair. The Task Force
        is required to evaluate and provide recommendations relating to the
        security of radiation sources in the United States from potential
        terrorist threats, and present its findings in a report within 1 year of
        passage of the Act and every 4 years thereafter.

        The first Task Force report, released August 15, 2006, identified the
        key accomplishments of the U.S. Government related to the
        security of radioactive materials in use, storage, or transport. The
        Task Force concluded that “since September 11, 2001, Federal
        Agencies have implemented or are in the process of implementing
        actions to increase security. While implementation of some of
        these activities is still in progress, the actions taken to date have
        substantially enhanced security.”

II. PURPOSE

        In February 2005, the NRC Office of the Inspector General (OIG)
        began a review to determine if NRC's oversight of byproduct
        material provides reasonable assurance that licensees are using
        the material safely and account for and control material. During
        2006, OIG issued three reports related to material tracking and
        licensing. Also during this timeframe, the Government
        Accountability Office (GAO) conducted an investigation to ascertain
        whether radioactive sources could be smuggled across U.S.
        borders. The GAO work culminated in a March 2006 congressional
        hearing to discuss the results of the investigation.

        Through this report, OIG seeks to synthesize the findings of those
        reviews and investigations in order to provide a more complete
        perspective of NRC’s approach to byproduct material security and
        control. In preparing the report, OIG conducted follow-on audit
        work and developed an additional recommendation to reflect this
        more complete perspective. The specific objective for this report
        was to discuss whether NRC has adequately adapted its approach
        to byproduct material security in the post-September 11 era in
        accordance with the expectations of congressional and executive
        policymakers and the American people.


                                       5
                                     Summary Report and Perspectives on Byproduct Material Security and Controls




III.      FINDING

       NRC Efforts to Regulate Byproduct Material Security

                 While NRC has implemented or planned a variety of measures to
                 regulate and provide for the security of byproduct material in the
                 post-September 11 era, the agency has bypassed an important
                 step in doing so. After the terrorist attacks of September 11, 2001,
                 the Federal Government expected governmental institutions to
                 evaluate and adapt their missions and security approaches to
                 address threats posed by terrorists. However, NRC has not fully
                 adapted its approach to byproduct material security, because the
                 agency has not taken the step to adequately identify and evaluate
                 security risks in the byproduct material area. Specifically, the
                 agency has not conducted an impartial and comprehensive look
                 inwards at its own business and regulatory processes. The agency
                 also lacks an independent perspective to assess the security
                 measures in place. Consequently, NRC’s approach has resulted in
                 an agency policy and some practices that do not consider the full
                 range of potential consequences of a dirty bomb.

                 Government Agencies Are Expected to Evaluate and Adapt
                 Missions

                 In the wake of the terrorist attacks of September 11, 2001,
                 governmental institutions were expected to evaluate and adapt their
                 missions to address the threats posed by terrorists. Expectations
                 to adapt agency missions have come from the highest levels of the
                 Federal Government as embodied in National Strategic documents
                 and Presidential Directives. For example, the National Strategy for
                 Homeland Security,5 published in July 2002, described securing the
                 American homeland as the U.S. Government’s most important
                 mission, requiring a coordinated and focused effort from the entire
                 American society. In The National Security Strategy of the United
                 States of America,6 published in September 2002, the President
                 stated “The major institutions of American national security were
                 designed in a different era to meet different requirements. All of
                 them must be transformed.”




5
 The White House Office of Homeland Security, National Strategy for Homeland Security, July 2002.
6
 The President of the United States, The National Security Strategy of the United States of America,
September 2002.


                                                     6
                                       Summary Report and Perspectives on Byproduct Material Security and Controls




                    Since September 2001, Federal efforts to transform or adapt
                    agencies’ security-related missions include:

                    ¾ Establishment of the Department of
                      Homeland Security (DHS) by bringing 22
                      Federal entities with roles to play in
                      protecting our Nation and preventing terrorist
                      attacks under its authority.

                    ¾ Establishment of the Office of the Director of
                      National Intelligence, which was endowed
                      with expanded budgetary and personnel
                      authorities to integrate the efforts of the
                      intelligence community—including the Central
                      Intelligence Agency (CIA) and the Federal
                      Bureau of Investigation (FBI)—into a more
                      unified and coordinated whole.

                    ¾ Initiation of a Department of Defense (DOD) transformation
                      effort to better balance its capabilities across several categories
                      of challenges, including meeting the threats of terrorism and the
                      use of weapons of mass destruction by state and non-state
                      actors.

                    The Federal Government also places a priority on keeping
                    radiological weapons technology away from terrorists. In 2003, the
                    President’s National Strategy for Combating Terrorism,7 stated that
                    the probability of a terrorist organization using a chemical,
                    biological, radiological, or nuclear weapon, or high-yield explosives,
                    has increased significantly during the past decade. It concluded
                    that preventing terrorist groups from gaining access to such
                    technology will be one of the country’s highest priorities. Also in
                    2003, a Homeland Security Presidential Directive titled Critical
                    Infrastructure Identification, Prioritization, and Protection directed
                    DHS to continue to work with NRC to ensure the necessary
                    protection of nuclear material in medical, industrial, and academic
                    settings and facilities that fabricate nuclear fuel; and the
                    transportation, storage, and disposal of nuclear material and waste.

                    By March 2006, the National Security Strategy was updated to,
                    among other things, clarify the President’s expectations that
                    transformation and adaptation efforts be extended to key domestic
                    institutions. The President’s expectations require that agencies
                    with traditional domestic functions, like NRC, increasingly play a

7
    The President of the United States, National Strategy for Combating Terrorism, February 2003.




                                                       7
               Summary Report and Perspectives on Byproduct Material Security and Controls




role in foreign and security policies. NRC has an important security
role in protecting nuclear materials. This security role is reflected in
the agency’s strategic plan as a discrete goal: “Ensure the secure
use and management of radioactive materials.”

As a greater number of Federal agencies adapt their approaches to
meet the expectations presented in the March 2006 National
Security Strategy, the importance of intergovernmental cooperation
and coordination becomes apparent. This concept was recognized
by the National Commission on Terrorist Attacks Upon the United
States, also known as the 9/11 Commission. In its 2004 report, the
9/11 Commission made recommendations that would “require a
government better organized than the one that exists today” in
order to “build unity of effort across the U.S. government."

NRC Has Not Fully Adapted Its Byproduct Material Security
Approach

NRC has not fully adapted its byproduct material security approach
to accommodate changes in threats to the Nation. OIG made this
conclusion on the basis of findings reached in previous OIG and
GAO reports on byproduct material security. From this body of
work, two primary areas of concern in the agency’s approach have
emerged: 1) NRC has not identified or closed all security gaps in its
material licensing process, and 2) NRC does not currently track all
dangerous byproduct material. Moreover, some individual
members of Congress—on a bipartisan basis—have observed that
NRC has not done enough with regard to material security and has
not fully adapted to the post-September 11 threat environment.

NRC Has Not Identified or Closed Gaps in Its Material Licensing
Process

Both OIG and GAO have performed reviews of NRC’s material
licensing process and have found security gaps and other
shortcomings in the program. Some of the security gaps in NRC’s
licensing process remain and compromise material security.




                               8
                                      Summary Report and Perspectives on Byproduct Material Security and Controls




                  In August 2003, GAO reported that NRC’s licensing process left
                  sealed sources8 vulnerable because NRC’s licensing procedures
                  do not require inspection of a licensee’s facilities before issuance of
                  a license.9 GAO thus recommended that NRC modify its process of
                  issuing specific licenses to ensure that sealed sources cannot be
                  purchased before NRC’s verification,
                  through inspection or other means, and
                  that the material will be used as
                  intended. NRC stated that it agrees
                  with the objective of the
                  recommendation. In December 2006,
                  the agency issued pre-licensing review
                  guidance for Agreement State and NRC
                  Regional license reviewers. NRC
                  officials believe that this guidance
                  addresses the vulnerability identified by
                  GAO. The GAO recommendation
                  remains open, but GAO is currently
                  reviewing NRC’s pre-licensing guidance
                  as part of a follow-on job commenced in September 2005.

                  In March 2006, OIG reported that NRC
                  officials were not aware of all the
                  potential security gaps in the byproduct
                  material license application and review
                  process.10 This lack of awareness was
                  attributed to NRC’s failure to take a
                  comprehensive look inwards at its own
                  business and regulatory processes,
                  which would include conducting
                  vulnerability assessments of the license
                  application and review process. As a
                  result, individuals with malevolent
                  intentions could exploit vulnerabilities in
                  the license application and review
                  process to obtain byproduct material for use in a dirty bomb.

                  In a March 28, 2006, testimony statement before the U.S. Senate
                  Committee on Homeland Security and Governmental Affairs,
                  Permanent Subcommittee on Investigations, GAO reported on an
                  investigation it had conducted to transport radioactive material into

8
  A sealed source is radioactive material that is permanently sealed in a capsule or closely bonded in a solid
form.
9
  GAO, Nuclear Security: Federal and State Action Needed to Improve Security of Sealed Radioactive
Sources, GAO-03-804 (Washington, D.C.: August 6, 2003).
10
   NRC Office of the Inspector General, Audit of the NRC Byproduct Materials License Application and
Review Process, OIG-06-A-11 (March 10, 2006).


                                                      9
                                    Summary Report and Perspectives on Byproduct Material Security and Controls




                 the United States across the northern and southern borders.11 The
                 GAO developed counterfeit bill-of-lading and counterfeit NRC
                 documents to accompany the transport of the material. It is
                 uncertain whether the NRC documents were required to
                 accompany the shipment. Nevertheless, the U.S. Customs and
                 Border Protection (CBP) officers at the border inspected the NRC
                 documents and could not detect that the documents were
                 fraudulent. Moreover, as OIG reported earlier,12 NRC documents
                 are used by licensees for other purposes, and it is important that
                 regulators and material manufacturers and distributors have a way
                 to verify the legitimacy of such documents.

                 NRC Does Not Track All Dangerous Byproduct Material

                 As OIG and GAO have previously reported, NRC does not currently
                 track all dangerous radioactive byproduct material, representing
                 another gap in the agency’s approach to material security. The
                 International Atomic Energy Agency (IAEA) developed a
                 categorization system that provides a relative ranking and grouping
                 of radioactive sources. While the IAEA classifies sources into 5
                 categories, it notes that sources in Categories 1 through 3 are
                 designated as varying degrees of dangerous. Yet, NRC is not
                 currently tracking Category 3 sources and cannot today accurately
                 account for the current location of all dangerous sources.

                 NRC has proposed a system to track
                 radioactive byproduct sources, yet
                 experts have identified areas where the
                 proposal falls short of enhanced public
                 health and safety and security goals.
                 NRC’s proposed National Source
                 Tracking System (NSTS) has not yet
                 been deployed, but the agency plans for
                 it to be a Web-based system that will
                 contain cradle-to-grave information on
                 high-risk sealed sources. According to
                 the Task Force report, NRC is
                 developing the NSTS to track Category
                 1 and 2 sources, plus three additional radionuclides of interest to
                 the Department of Energy (DOE). In September 2005, GAO found
                 that, as proposed, the NSTS would be of little use to DOE in its
                 efforts for the recovery and disposal of unwanted sealed

11
   GAO, Border Security: Investigators Transported Radioactive Sources Across Our Nation’s Borders at
Two Locations, GAO-06-583T, Testimony Before the Permanent Subcommittee on Investigations,
Committee on Homeland Security and Governmental Affairs, U.S. Senate, March 28, 2006.
12
   OIG-06-A-11.


                                                    10
                                      Summary Report and Perspectives on Byproduct Material Security and Controls




                  radiological sources, largely because the proposed NSTS will not
                  track beyond Category 2 sources.13 According to the GAO report,
                  the aggregate radioactivity of co-located individual sources poses
                  enough of a safety and security risk to warrant their recovery by
                  DOE, but the sources will not be tracked in NSTS because they are
                  not Category 1 or 2 sources. Also, in September 2005, the Health
                  Physics Society14 noted shortcomings in the proposed NSTS due to
                  NRC’s failure to include Category 3 sources.

                  The Commission decided that until the NSTS is implemented,15
                  NRC will maintain an inventory of sources at or above Code of
                  Conduct Category 2 values in an Interim Database that will be
                  updated annually. In other words, until full implementation of
                  NSTS, NRC will have only an annual snapshot of the inventory of
                  licensees permitted to possess the most dangerous sources. In
                  addition, NRC has not undertaken any inspection efforts to validate
                  the accuracy of information reported to the NRC.

                  On June 9, 2006, the Commission directed the staff to perform a
                  one-time NSTS data collection and analysis of sources.16 The
                  Commission said that the staff should collect these data to support
                  two objectives. The first objective is to provide analysis that would
                  support a proposed rule that would include Category 3 sources in
                  the NSTS. As the staff stated in an issue paper to the Commission,
                  the primary objective of this activity would be to determine the
                  numbers of Category 3 licensees, sources, and transactions. The
                  Commission’s directions to the staff stated that a formal rulemaking
                  plan is not required, but that the staff should plan to complete the
                  expansion of the NSTS within 3 years. The second objective is to
                  evaluate the Category thresholds for general licenses to determine
                  if some generally-licensed byproduct material should be specifically
                  licensed down to the Category 3.5 level.17

                  Congressional Criticism of NRC Material Security Efforts

                  Selected U.S. Congressional observations suggest that NRC has
                  not done enough with regard to material security and has not fully
                  adapted to the post-September 11 threat environment.

13
   GAO, Nuclear Security: DOE Needs Better Information to Guide Its Expanded Recovery of Sealed
Radiological Sources, GAO-05-967 (Washington, D.C.: September 22, 2005).
14
   The Health Physics Society is an independent scientific organization of radiation safety professionals.
15
   According to the Task Force report, an initial, basic version of NSTS is currently expected to go online in
spring 2007, with a more advanced, second release expected in winter 2007/2008.
16
   Memorandum, A. Vietti-Cook to L. Reyes, re: Staff Requirements – SECY-06-0094, Tracking or Providing
Enhanced Controls for Category 3 Sources, dated June 9, 2006.
17
   According to an NRC manager, an analysis down to Category 3.5 would include all Category 3 sources
and the top one-tenth, based on activity, of Category 4 sources.


                                                      11
                                     Summary Report and Perspectives on Byproduct Material Security and Controls




                  Congressional concern has been chronicled via proposed
                  legislation, hearings, correspondence with the Commission, and
                  requests for GAO reviews.

                  One way to gauge congressional concern is by tracking the
                  legislation proposed in both the House and Senate. Since
                  October 2001, members of Congress have submitted no fewer than
                  50 bills that, in whole or in part, addressed issues and concerns
                  related to dirty bombs.18 Of these, 16 bills included language that
                  would specifically require NRC to improve its oversight of or take
                  additional security measures to protect radioactive byproduct
                  material.19

                  During the same period, Congress held numerous hearings on
                  terrorism and dirty bombs. Some of these hearings included
                  testimony that specifically addressed NRC’s oversight of security
                  for dangerous radioactive material that could be used in a dirty
                  bomb. For example, a National Academy of Sciences Director
                  testified before a House Homeland Security Subcommittee in
                  September 2005, his expectations that NRC will soon put stronger
                  procedures in place for ensuring proper handling and security of
                  radioactive material.20

                  Most recently, in March 2006, Senate Homeland Security and
                  Governmental Affairs Subcommittee members responded to written
                  and verbal hearing statements from a number of witnesses
                  regarding a GAO investigation. GAO testified before the
                  subcommittee about the ease with which NRC documents
                  accompanying material brought across U.S. borders could be
                  falsified.21 In verbal testimony at the hearing, GAO also explained
                  how a patient entity could acquire enough dangerous material to
                  build a dirty bomb without attracting attention from NRC. During
                  this hearing, a Senator stated that “the NRC must reform the
                  processes by which anyone can acquire radiological material.”
                  Another Senator observed problems with NRC’s documentation




18
   The number of bills counted by OIG reflects some duplication of separate bills proposed in both the House
                                                                    th
and the Senate. Furthermore, some bills proposed during the 107 Session of Congress were reintroduced
            th              th
for the 108 and/or the 109 Sessions of Congress.
19
   These bills include the Energy Policy Act of 2005, which, in July 2005, was approved by the U.S. House of
Representatives by a vote of 275 to 156 and in the U.S. Senate by a vote of 74 to 26.
20
   Schweitzer, Glenn E., Director for Central Europe and Eurasia, National Academy of Sciences, The Nexus
of International Organized Crime and Terrorism: The Case of Dirty Bombs, Testimony to the Subcommittee
on Prevention of Nuclear and Biological Attacks of the Committee on Homeland Security, U.S. House of
Representatives, September 22, 2005.
21
   GAO-06-583T.


                                                     12
              Summary Report and Perspectives on Byproduct Material Security and Controls




and licensing that were identified in 2003 and which, according to
GAO’s testimony, remain a problem to this day. The Senator
referred to NRC’s failure to implement corrective regulations as
“shocking.”

Since 2001, selected members of Congress have corresponded
directly with NRC to express concerns with NRC’s efforts to better
oversee the security of radiological material. During a 3-month
period in 2006, several members of Congress wrote to NRC to
question a number of the agency’s material security decisions.
Among other concerns, members have made the following specific
observations:

¾ NRC has failed to implement selected material security-related
  sections of the Energy Policy Act of 2005 in a timely manner;

¾ NRC’s commitment to implementing future required material
  security regulations is questionable; and

¾ NRC has failed to establish a program and a database to verify
  the authenticity of NRC licensing documents.

OIG also reviewed Congressional requests submitted to GAO for
proposed audits and investigations. A recent request from a
Senate Committee Chair and Ranking Member stated in an April
27, 2006, letter to GAO that NRC’s standards appear to be
inconsistent with standards used by other Federal agencies to
assess the security and health risks posed by radioactive sources.
In the letter, the members requested GAO to examine NRC’s
material security efforts and progress since 2003 on GAO’s
previous recommendations and on its licensing database. The
members also requested GAO to review NRC’s coordination with
other agencies, including efforts to reconcile inconsistencies with
other Federal standards guiding the purchase, use, and
transportation of radioactive material.

NRC Has Not Fully Identified and Evaluated Risks

Based on two OIG byproduct material reports published in 2006,
OIG concluded the NRC has not fully identified and evaluated
security risks in the byproduct material area. Specifically, the
agency had not conducted adequate analyses in its NSTS and
material licensing programs.




                              13
                                    Summary Report and Perspectives on Byproduct Material Security and Controls




                 In February 2006, OIG reported that
                 the proposed NSTS may be
                 inadequate because NRC did not
                 consider a variety of factors when the
                 agency conducted a regulatory
                 analysis for NSTS.22 A regulatory
                 analysis provides the framework for
                 making regulatory decisions. The
                 factors not initially considered by
                 NRC’s regulatory analysis for NSTS
                 and the resulting security risks that
                 NRC took by removing the factors
                 from consideration for the NSTS are
                 summarized in the table below.


Table 1: NSTS Factors Not Initially Considered by NRC’s Regulatory Analysis and
Related Security Risks
Factor not considered                                  Related security risk
Tracking beyond Category 2 — NRC did not               All material designated as “dangerous,” which
consider the number of sources located in the          includes Category 3, would not be tracked.
United States for Category 3 to 5 sources.
Aggregation of sources — NRC did not                   NSTS would provide no oversight of material
consider the co-location of radioactive sources        that, when aggregated, would pose the same
to determine if their aggregate curie activity         or greater threat than the Category 1 or 2
would qualify the material at the next highest         material that would be tracked or the Category
IAEA Category.                                         3 sources that are currently not being tracked.
Malevolent uses of dangerous sources — NRC             NSTS features could be designed without the
did not consider the diversion of radioactive          benefit of knowing the specific ways that
material from legal to illegal and criminal uses.      sources could be diverted to malevolent use.
Source: OIG analysis.




                 NRC has since stated that NRC staff intends to begin the process
                 to evaluate the need, benefits, and costs to tracking Category 3
                 sources. However, there is no specific timeline for when, how
                 many, or even if any Category 3 sources would be tracked by
                 NSTS.

                 OIG also found that material license application review officials
                 were not aware of all the potential security gaps in the program
                 because the agency had failed to look inwards at its own business
                 and regulatory processes. OIG thus recommended that NRC
                 conduct a vulnerability assessment of its license application and
                 review process and the methods used by licensees to purchase

22
  NRC Office of the Inspector General, Audit of the Development of the National Source Tracking System,
OIG-06-A-10 (February 23, 2006).


                                                    14
                                  Summary Report and Perspectives on Byproduct Material Security and Controls




                byproduct material from sellers. NRC stated that it is committed to
                completing an effectiveness review of its actions and does not
                believe that the additional reviews suggested by OIG’s
                recommendations are necessary at this time. However, a post-
                implementation effectiveness review of security actions to address
                known vulnerabilities would not help program officials become
                aware of unknown vulnerabilities. That is because an effectiveness
                review would only analyze actions taken to address known
                vulnerabilities, rather than uncover other, previously unknown
                vulnerabilities. Currently, OIG’s recommendations remain
                unresolved.

                The OIG reports illustrate two instances where the agency moved
                forward with security-related program actions without conducting a
                rigorous analysis to justify the actions. When questioned by
                Government auditors or elected officials about the bases of its
                security-related actions or about its efforts to identify and close
                vulnerabilities in its material licensing and tracking programs, NRC
                has consistently pointed to a “graded, risk-informed” approach to
                byproduct material security. For NRC, the “graded, risk-informed”
                approach results in the identification of “risk-significant” or “high-
                risk” sources, equivalent to IAEA Category 1 and 2 sources.

                NRC’s “graded, risk-informed” approach discounts factors related to
                malevolent terrorist intentions because the agency focuses the
                performance of its mission—including those related to common
                defense and security—to scientific and engineering evaluations of
                licensed activities that use radioactive material. Indeed, the agency
                notified the House Committee on Government Reform that
                factors—such as psychological, social, and economic effects—can
                vary and provide a less stable measure for establishing security
                measures.23 By its very definition, such an approach would
                discount the intentions and capabilities of a malevolent entity bent
                on obtaining byproduct material that could be used in a dirty bomb.

                OIG has concluded that NRC’s approach to identifying byproduct
                material security requirements lacks an independent perspective of
                a credible organization such as the National Academy of Sciences,
                particularly with regard to assessing agency programs for potential
                weaknesses. For example, an independent panel of experts
                convened externally from the agency could identify agency
                vulnerabilities according to potential consequences and risks. The
                findings of such an independent body could help validate or provide
                suggested improvements for the agency’s ongoing byproduct

23
 Letter from NRC Chairman Nils J. Diaz to The Honorable Thomas Davis, Chairman, Committee on
Government Reform, U.S. House of Representatives, February 4, 2004.


                                                  15
               Summary Report and Perspectives on Byproduct Material Security and Controls




material security efforts.

NRC’s Approach Leads to a Policy and Some Practices That
Do Not Consider All Dirty Bomb Consequences

Consistent with its byproduct material approach, NRC has
developed a byproduct material security policy and some practices
that may allow for consequences that are inconsistent with other
interests. Of particular significance is an NRC policy for evaluating
the risk of dirty bombs that does not recognize all of the potential
effects of a dirty bomb. Moreover, the NRC staff’s approach does
not reflect a post-September 11 stance.

NRC Policy Does Not Recognize All Effects of a Dirty Bomb

During its recent review of NRC’s oversight of byproduct material
and sealed sources, OIG became aware of an NRC policy for
evaluating the risk of dirty bombs that does not recognize all of the
potential effects of a dirty bomb. The staff proposed, in a
November 2004 issue paper, a new NRC policy for assessing the
effectiveness of security measures of material licensees based on
“prompt fatalities” consequences only. The Commission approved
the staff’s proposal, hereafter referred to as the “prompt fatalities”
policy. The policy established a “decision-making framework” for
vulnerability assessments of material licensees to judge the
effectiveness of future security measures.

A subsequent issue paper submitted to the Commission on
March 1, 2006, documented the agency’s extensive use of the
decision-making framework to evaluate the security vulnerability of
various material and research and test reactor licensees. The staff
reported that:

       “the security measures already taken by the Commission are
       sufficient to ensure adequate protection of the public and
       promote common defense and security.”

Essentially, the staff expressed confidence in their security
measures without the benefit of knowing all of the potential
vulnerabilities that would have resulted from a comprehensive look
inwards at its own business and regulatory processes. Had
consequences of a dirty bomb other than prompt fatalities been
considered—including the technical, socioeconomic, psychological,
environmental, and other effects—the results of the decision-
making framework might have been different and required different
or possibly additional security measures to secure byproduct



                               16
               Summary Report and Perspectives on Byproduct Material Security and Controls




material. Conversely, measuring dirty bomb consequences without
consideration of these additional consequences causes the NRC to
understate the risk these weapons pose to national security. For
example, when asked about the socioeconomic effects of
accounting for radioactive sources in NRC’s security decision-
making, an NMSS manager stated that NRC is a scientific agency
and really cannot take the socioeconomic impacts into account.

In addition, the “prompt fatalities” policy, as written, does not accord
with DHS’ draft Sector-Specific Plan Nuclear Reactors, Materials
and Waste for Critical Infrastructure Protection as Input to the
National Infrastructure Protection Plan, published in July 2004 and
updated on June 8, 2006. According to the draft plan, DHS uses
several processes to analyze the consequences of potential
terrorist attacks across the various parts of the nuclear sector.
These include health, governance, economic, and psychological
impacts. The draft plan states that the use of radioactive material
in an unconventional attack via a dirty bomb is widely recognized to
have a greater likelihood of physical and social disruption than of
lethal radiological consequences; however, the psychological and
economic consequences of dispersal could be high. As an NSIR
senior manager concluded in December 2004, the prompt fatalities
framework “does not appear to meet these objectives.”

Staff Approach Does Not Reflect a Post-September 11 Stance

During its recent review of NRC’s oversight of byproduct material
and sealed sources, OIG found that staff holds a reactive rather
than proactive approach to material security. The position of some
NRC material licensing officials reflects a wait-and-see approach to
implementing additional security measures. When questioned
about potential security gaps in NRC’s own license application and
review process, an NRC senior manager stated that NRC has not
systematically tried to look at the holes in the process. He added
that if NRC license reviewers and inspectors came across such
vulnerabilities or holes, either “through their experience or a flash of
insight,” they would address the holes.

NRC officials have also expressed confidence in their procedures
based on the fact that terrorists have not used a dirty bomb. A
senior manager told OIG that "until I'm convinced" somebody is
trying to obtain material for malevolent use, "I don't see putting
more resources in closing the potential vulnerabilities." Another
senior manager said that “we have the time” to implement security-
related measures for byproduct material and perform reviews of the
measures to see if any gaps remain.



                               17
                       Summary Report and Perspectives on Byproduct Material Security and Controls




         The agency also downplays the likelihood of the fraudulent use of
         NRC documents. A manager stated that the fraudulent use of NRC
         documents was not a likelihood because the agency had never
         actually seen this occur. However, OIG found a documented case
         of such fraudulent use from 1998 in NRC’s records and, as noted
         earlier, the GAO used a fraudulent NRC document during a 2006
         investigation.

         The implication of these staff perspectives is that NRC has not
         proactively identified and closed security gaps associated with the
         malevolent use of radioactive material. Specifically, the agency has
         not acknowledged the importance of detecting unknown
         vulnerabilities in addition to addressing all known vulnerabilities.
         The only assessments the agency currently proposes in response
         to OIG’s audit reports are the “effectiveness reviews” that the
         agency intends to conduct sometime in the future to determine
         whether known vulnerabilities have been effectively closed by the
         proposed or implemented security actions. However, such
         effectiveness reviews will not help program officials become aware
         of unknown vulnerabilities.

IV.   SUMMARY AND CONCLUSION

         The events of September 11, 2001, changed the world forever. It is
         obvious that we will never live in a risk-free society. Nonetheless,
         Americans expect government institutions to adapt their
         approaches to meet the emerging threats posed by motivated and
         patient terrorists. In line with its safety and security mission, NRC
         therefore has the responsibility to take appropriate, meaningful
         steps to mitigate the dangers associated with the uses of
         radioactive material.

         Recently, NRC’s efforts to take such appropriate and meaningful
         steps to address the security of radioactive material have come
         under closer review. Certainly, NRC has taken a number of steps
         to improve the security of byproduct material. Nonetheless, the
         work published by OIG and GAO, as a whole, paints a picture of
         NRC efforts that are incomplete, especially with regard to taking a
         comprehensive look inwards at its own business and regulatory
         processes, which would include conducting a vulnerability
         assessment of the agency’s material licensing and tracking
         programs. Such an assessment should necessarily include
         examination of the management, operational, and technical security
         controls and the extent to which these controls are (1) implemented



                                       18
               Summary Report and Perspectives on Byproduct Material Security and Controls




correctly, (2) operating as intended, and (3) producing the desired
outcome with respect to mitigating security vulnerabilities.

As the Nation’s authority on radioactive material, NRC may face
continued difficulties in convincing critics and concerned onlookers
of the appropriateness of its approach towards byproduct material
security. However, OIG has not found any evidence that the
agency has sought an independent assessment of the technical,
socioeconomic, psychological, environmental, and other risks and
consequences associated with the malevolent use of byproduct
material. Lacking such an independent assessment of its
byproduct material security approach, NRC is faced with the need
to continually justify that it is in accord with the potential threat and
consequences posed by a dirty bomb. Further, the agency also
risks not being aware of potential weaknesses and vulnerabilities in
its byproduct material security efforts.

Recommendation

The Office of the Inspector General recommends that the Executive
Director for Operations:

   1. Convene an independent panel of experts external to the
      agency to identify agency vulnerabilities concerning NRC’s
      material licensing and tracking programs and validate the
      agency’s ongoing byproduct material security efforts.




                               19
 Summary Report and Perspectives on Byproduct Material Security and Controls




[Page intentionally left blank]




                 20
                     Summary Report and Perspectives on Byproduct Material Security and Controls




                                                                                  Appendix A
SCOPE AND METHODOLOGY


       The overall purpose of this report was to synthesize recent findings
       related to byproduct material tracking and licensing in order to
       provide a more complete perspective of NRC’s approach to
       byproduct material security and control. The specific objective for
       this report was to discuss whether NRC has adequately adapted its
       approach to byproduct material security in the post-September 11
       era in accordance with the expectations of congressional and
       executive policymakers and the American people. To address the
       objective, OIG incorporated findings from previous OIG and GAO
       reports, and conducted follow-on work to include reviews of
       updated regulations and guidance, congressional correspondence
       and legislation, and Government activities related to material
       tracking and security.

       OIG incorporated findings from three OIG reports published in
       2006, as follows:

       ¾ Audit of the Development of the National Source Tracking
         System, OIG-06-A-10, February 23, 2006.

       ¾ Audit of the NRC Byproduct Materials License Application and
         Review Process, OIG-06-A-11, March 10, 2006.

       ¾ Audit of NRC’s Process for Releasing Commission Decision
         Documents, OIG-06-A-22, September 8, 2006.

       During these audits, OIG met with and interviewed NRC and other
       Federal agency staff, as well as experts from agencies and
       organizations external to the Federal Government. OIG conducted
       analyses and/or performed data reviews of NRC methodologies,




                                     21
              Summary Report and Perspectives on Byproduct Material Security and Controls




databases, and management controls. Collectively, OIG conducted
these audits from February 2005 to March 2006 in accordance with
generally accepted Government auditing standards.

OIG also incorporated findings from GAO reports and testimony, as
follows:

¾ Nuclear Security: Federal and State Action Needed to Improve
  Security of Sealed Radioactive Sources, GAO-03-804, August
  6, 2003.

¾ Nuclear Regulatory Commission: Challenges Facing NRC in
  Effectively Carrying Out Its Mission, Testimony Before the
  Subcommittee on Clean Air, Climate Change, and Nuclear
  Safety, Committee on Environment and Public Works, U.S.
  Senate, GAO-05-754T, May 26, 2005.

¾ Nuclear Security: DOE Needs Better Information to Guide Its
  Expanded Recovery of Sealed Radiological Sources, GAO-05-
  967, September 22, 2005.

¾ Border Security: Investigators Transported Radioactive Sources
  Across Our Nation’s Borders at Two Locations, Testimony
  Before the Permanent Subcommittee on Investigations,
  Committee on Homeland Security and Governmental Affairs,
  U.S. Senate, GAO-06-583T, March 28, 2006.

¾ Border Security: Investigators Transported Radioactive Sources
  Across Our Nation’s Borders at Two Locations, Testimony
  Before the Subcommittee on International Terrorism and
  Nonproliferation, Committee on International Relations, House
  of Representatives, GAO-06-939T, July 5, 2006.

¾ Border Security: Investigators Transported Radioactive Sources
  Across Our Nation’s Borders at Two Locations, Testimony
  Before the Subcommittee on International Terrorism and
  Nonproliferation, Committee on International Relations, House
  of Representatives, GAO-06-940T, July 7, 2006.




                              22
              Summary Report and Perspectives on Byproduct Material Security and Controls




OIG also observed Government activities related to material
tracking and security, including activities between NRC and CBP to
implement a radioactive material importation approval system.

Major contributors to this report were Anthony Lipuma, Team
Leader; Sherri Miotla, Audit Manager; Michael Cash, Senior
Technical Advisor; R.K. Wild, Senior Analyst; and Andrea Ferkile,
Analyst.




                              23
  Summary Report and Perspectives on Byproduct Material Security and Controls




[Page intentionally left blank.]




                  24
               Summary Report and Perspectives on Byproduct Material Security and Controls




                                                                            Appendix B
FORMAL AGENCY COMMENTS




                               25
Summary Report and Perspectives on Byproduct Material Security and Controls




                26
Summary Report and Perspectives on Byproduct Material Security and Controls




                27
Summary Report and Perspectives on Byproduct Material Security and Controls




                28
Summary Report and Perspectives on Byproduct Material Security and Controls




                29
Summary Report and Perspectives on Byproduct Material Security and Controls




                30
                      Summary Report and Perspectives on Byproduct Material Security and Controls




                                                                                   Appendix C
OIG ANALYSIS OF AGENCY COMMENTS

        In a January 12, 2007, letter accompanying its response to OIG’s
        report, the agency stated that it agrees with the benefits of an
        independent assessment of NRC programs such as byproduct
        material security. The agency then states that such an
        independent review was conducted through the Task Force on
        Radiation Source Protection and Security, also referred to as the
        Task Force. OIG does not accept the agency’s suggestion that the
        Task Force fulfills the intent of the OIG recommendation for two
        primary reasons, as follows:

        1.    The Task Force is not independent. The overall Task Force
              is chaired by NRC. All of the Task Force issue area
              subgroups contain one or more NRC staff, and 5 of the 10
              subgroups designate NRC staff as the subgroup lead. Some
              subgroups contain as many as 5 or 6 NRC staff. With so
              many NRC staff involved, there is no way to determine what
              influence NRC may have had in Task Force proceedings
              and findings. Nor is there any way to determine if NRC’s
              participation was objective when the focus of a subgroup
              meeting was an NRC program.

              “Independence” is a key concept that OIG incorporated into
              its recommendation in order to address the agency’s
              reluctance to implement OIG’s earlier recommendation. In
              March 2006, OIG recommended that NRC conduct a
              complete vulnerability assessment of its materials program.
              With regard to that previous recommendation, however, the
              agency believes that such an effort is unnecessary. OIG
              believes that the agency may not have the objectivity to
              review its own program for vulnerabilities.

        2.    The Task Force Charter does not require in-depth review
              and identification of NRC program vulnerabilities. The Task
              Force, which was established by an Act of Congress and
              was not a proactive security effort of the NRC, was primarily
              established to evaluate and provide recommendations to the
              President and Congress relating to security of radiation
              sources. But the Charter does not specifically require the
              identification of agency vulnerabilities in NRC’s licensing and
              tracking programs.




                                      31
              Summary Report and Perspectives on Byproduct Material Security and Controls




      In its letter to OIG, NRC states that the Task Force found no
      significant gaps that are not already being addressed. Yet,
      the Task Force was not chartered to and did not perform a
      comprehensive vulnerability assessment of NRC material
      programs, and there is no discussion of or results from any
      such assessment in the Task Force’s August 2006 report.
      Such an assessment should necessarily include examination
      of the management, operational, and technical security
      controls and the extent to which these controls are (1)
      implemented correctly, (2) operating as intended, and (3)
      producing the desired outcome with respect to mitigating
      security vulnerabilities.

NRC provided additional comments on the OIG draft report
pertaining to the agency’s ongoing efforts to implement security
controls, close or address known security gaps, track materials,
respond to Congressional concerns, and implement a risk-informed
approach to the security of radioactive materials. OIG has revised
portions of its report to reflect the agency’s implementation or
stated intentions to implement some of these measures. However,
the agency has not conducted an impartial and comprehensive look
inwards at its own business and regulatory processes, which would
include conducting vulnerability assessments of the agency’s
material licensing and tracking programs. OIG has emphasized in
its reports and in conversations with the agency the importance of
an approach that first seeks to identify hitherto unknown
vulnerabilities, and then take steps to address the vulnerabilities.
NRC’s response to OIG’s reports has focused largely on the issue
of addressing known vulnerabilities. Furthermore, the agency has
not acknowledged the need to perform a comprehensive review as
a measure of self-assurance with regard to unknown vulnerabilities.




                              32
